<html>
<title> - OVERSIGHT OF THE LIBRARY OF CONGRESS' INFORMATION TECHNOLOGY MANAGEMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
OVERSIGHT OF THE LIBRARY OF CONGRESS' INFORMATION TECHNOLOGY MANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2017

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      
      


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
   
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-632                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
  
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


OVERSIGHT OF THE LIBRARY OF CONGRESS' INFORMATION TECHNOLOGY MANAGEMENT

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:02 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Smith, 
Loudermilk, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Cole Felder, Deputy 
General Counsel; Eric McCracken, Communications Director; C. 
Maggie Moore, Legislative Clerk; Rob Taggart, Deputy 
Legislative Clerk/Oversight; Jamie Fleet, Minority Staff 
Director; Khalil Abboud, Minority Deputy Staff Director; Eddie 
Flaherty, Minority Chief Clerk; and Meredith Connor, Minority 
Staff Assistant.
    The Chairman. I now call to order the Committee on House 
Administration for the purposes of today's hearing, ``Examining 
the Library of Congress'' Information Technology Management.''
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included.
    A quorum is present, so we may proceed.
    I would like to thank our witnesses for taking time out of 
their schedules to be with us today.
    Dr. Hayden, thank you for returning. I know you testified 
before this Committee earlier in the year on the Library of 
Congress' priorities for 2017 and beyond.
    And I thank Mr. Barton and Mr. Hyde for their appearances 
before our Committee to discuss this important issue with us.
    While IT management was briefly discussed at our hearing in 
February, today's hearing will allow the Committee to receive 
more detailed information on what the Library is doing to 
improve their management of the Library's IT systems.
    The Library of Congress serves many different 
constituencies in many different capacities. The 11-month audit 
resulted in 6 broad findings and 31 corresponding 
recommendations to strengthen the Library's IT management.
    According to GAO, the weaknesses included lack of strategic 
planning, lack of processes related to investment management, 
lack of processes related to acquisition management, weak 
processes related to information security, and lack of service 
to the Library's service units, such as CRS and the Copyright 
Office, and a lack of leadership, including a chief information 
officer.
    Since GAO released its report, the Library has worked to 
address these recommendations. To date, five recommendations 
have been fully implemented to GAO's satisfaction.
    For example, in 2015, the Library appointed Mr. Barton as 
the new Chief Information Officer. Later, in 2016, Dr. Hayden 
issued a memorandum directing all Library technology activities 
be centrally coordinated through the Office of the Chief 
Information Officer and be approved by the Library's Chief 
Information Officer.
    And most recently, the Library completed its IT strategic 
plan. Finally, the Library has developed and implemented a 
number of policies and processes to review IT investments as 
well as inventory IT systems.
    According to GAO, the Library has committed to closing 
another 22 recommendations by the end of this year, a very 
ambitious goal.
    I look forward to hearing from all of our witnesses today 
on these efforts, including understanding what support will be 
available.
    For example, there are many things that we will look at 
today with the witnesses. And as we look at how things have 
gone, I also want to point out a couple of other things before 
we hear from Ms. Lofgren.
    The Library of Congress serves as the largest Library in 
the world, maintaining much more than 164 million items in its 
collections. It houses a Copyright Office, which registered 
more than 414,000 copyright claims in fiscal year 2016.
    The Library is also home to the National Library Service 
for the Blind and Physically Handicapped, which according to 
the Library, in fiscal year 2016 provided 22 million copies of 
braille and recorded books and magazines to more than 800,000 
individuals.
    These are just a few of the Library's roles and the 
constituencies that they serve. As technology has advanced, the 
Library's constituencies have changed the way that they consume 
information. As a result, it has had to modernize its systems, 
evolving its IT systems and processes to meet the needs of its 
constituencies in a digital world.
    However, these changes have not come without management 
challenges. As far back as 1996, the Library had issues 
managing its IT systems, and these are a part of our history. 
And you look at what has happened in the past as we have gone 
through these things, and we want to come to a point where we 
address these challenges and these recommendations that have 
been made.
    So I would now like to recognize my colleague, Zoe Lofgren, 
the gentlelady from California, for the purpose of providing an 
opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Brady was unable to be here this morning, so I am happy 
to give the statement, his statement. We are thankful that this 
hearing is being held and that we can hear from these wonderful 
witnesses, and it is good to see them all.
    Under the leadership of Dr. Hayden and now CIO Bud Barton, 
we think the Library has made great strides in the IT area, and 
that is really important.
    We think about the Library in terms of its wonderful 
collection, the beautiful building, the Copyright Office, 
services for the blind, but none of that really functions well 
if we don't have an adequate IT system. And as we know, we have 
had deficiencies there for a long time.
    The appointment of Mr. Barton has been a huge important 
step forward. We are appreciative of that. The clearly defined 
roles and responsibilities are just essential if we are going 
to move forward successfully in the IT area.
    It is my understanding that of the 31 recommendations made 
by the GAO, all are either on schedule or ahead of schedule or 
have been completed, which is really fabulous.
    The Library, I think, has submitted their budget request 
for fiscal year 2018, and in it they have requested increases 
to their funding to support the continued IT modernization, and 
I think we all need to support this request. It is an 
investment in our future. The Library can't be expected to keep 
pace with rapid technological changes if they are not resourced 
to do so.
    As I say, the Library is a world-class cultural 
institution. It is something we are proud of. It is one of the 
premier visitor attractions in this beautiful city. But the 
behind-the-scene work of the IT people is essential.
    So thank you, witnesses. Thank you, Dr. Hayden, for your 
terrific leadership in this part of the Library and every 
other. It is a pleasure to see you again.
    And with that, Mr. Chairman, I know that there are no other 
hearings commanding attention on the Hill today, so I will 
yield back.
    The Chairman. Well, as evidenced by the incredible number 
of media representatives who are here to cover this hearing. 
That is a great observation, Ms. Lofgren.
    The gentlelady yields back.
    Anyone else? Any other member care to make any opening 
statements?
    Mr. Raskin. Mr. Chair, I just wanted to welcome back to the 
Committee Dr. Hayden. As the only representative of the Free 
State here, I want to just commend Dr. Hayden on her leadership 
and just reemphasize how proud everybody is in Maryland of what 
you are doing in the Library of Congress. And, of course, we 
had your leadership at the Enoch Pratt Library in Baltimore. So 
I want to associate myself with the remarks of Ms. Lofgren and 
welcome you back.
    The Chairman. The gentleman yields back.
    I would now like to introduce our witnesses. Dr. Carla 
Hayden was sworn in as the 14th Librarian of Congress on 
September 14, 2016. Her appointment to this position also 
marked the first time in our Nation's Library that we have had 
a woman and an African American.
    Dr. Hayden is a librarian's librarian, dedicating her 
entire career to pursuing the accessibility of libraries in 
communities. In her short time leading the Library, Dr. Hayden 
has already demonstrated her commitment to continuing the 
tradition of collecting, preserving, and making available a 
vast collection of educational resources and protecting those 
collections for future generations.
    The Committee welcomes you back, Dr. Hayden.
    Mr. Bernard ``Bud'' Barton was named the Library's Chief 
Information Officer on September the 8th, 2015. In his capacity 
as CIO, Mr. Barton serves as the primary adviser to the 
Librarian on all information technology matters, as well as a 
voting member of the Library's Executive Committee. Prior to 
his service at the Library, Mr. Barton was the Deputy 
Administrator and Chief Information Officer of the Defense 
Technical Information Center.
    Welcome to you, Mr. Barton.
    Our final witness is Mr. Kurt Hyde. Mr. Hyde is the current 
Inspector General for the Library of Congress. As the IG, Mr. 
Hyde is responsible for assessing the Library's operations. 
Prior to serving as the Library's IG, Mr. Hyde served as the 
Deputy Inspector General for audit and evaluations at the 
Special Inspector General for Troubled Asset Relief Program. 
Sounds a lot like TARP.
    Welcome, Mr. Hyde.
    Again, we thank each of you for joining us today. We look 
forward to hearing your testimony. And the Chair will now 
recognize for 5 minutes Dr. Carla Hayden for the purposes of an 
opening statement.
    Dr. Hayden.

 STATEMENTS OF THE HONORABLE DR. CARLA D. HAYDEN, LIBRARIAN OF 
    CONGRESS; MR. BERNARD A. BARTON, JR., CHIEF INFORMATION 
 OFFICER, LIBRARY OF CONGRESS; AND MR. KURT W. HYDE, INSPECTOR 
                  GENERAL, LIBRARY OF CONGRESS

                  STATEMENT OF CARLA D. HAYDEN

    Ms. Hayden. Thank you. And good morning, Chairman Harper 
and Members of the Committee. And thank you for allowing me to 
provide testimony on information technology at the Library of 
Congress. I want to express my gratitude for the support this 
Committee and, in fact, the entire Congress gives to the 
Library.
    The Library's vision is to provide excellent service to 
Members of Congress while providing free and equal access to 
the public. When I envision the future of this great 
institution, I see it growing in stature. And as its resources 
are readily available for more people online, users will not 
have to be in Washington, D.C., to access the Library's vast 
resources and collections. Our hope is that everyone everywhere 
will have a sense of ownership and pride in this national 
treasure.
    And now, nearly 9 months into my tenure, I continually 
believe and am inspired by the depth and breadth of the 
Library's collections and the expertise and commitment to 
public service by its staff.
    The Library continues to focus, with my direction, in 
earnest on its information technology management challenges. 
The Government Accountability Office, GAO, delivered reports to 
the Library in 2015 that cited the need to improve the 
institution's overall IT planning, management, and operations. 
The Library Inspector General also delivered reports on IT 
investment management and systems development.
    Together, these reports offered dozens of specific helpful 
policy and operational recommendations to the Library, and we 
welcome these examinations and especially the constructive 
guidance they provide. That knowledge and guidance has proven 
critical to developing the dynamic state-of-the-industry IT 
infrastructure and management the Library so sorely needs.
    In the months since I took office, to better support these 
priorities, we have taken important steps to strengthen 
management and oversight within existing resources.
    In November, I addressed the need to maximize value from 
the Library's investment in technology by directing that all 
technology activities be centrally coordinated through the 
Office of the Chief Information Officer and approved by Mr. Bud 
Barton, who now reports directly to me.
    I have weekly meetings with Mr. Barton, who shares regular 
updates on the progress being made in not only centralization, 
but on the entire progress of IT modernization. IT 
centralization is well underway and IT investment planning is 
now monitored and coordinated Librarywide.
    The enhancements in the IT infrastructure also allow us to 
increase visibility and accessibility of the Library and its 
programming to all of your constituents around the country and 
to support modern applications for programs such as the 
Veterans History Project mobile application. More and more 
events are being livestreamed to schools and public libraries 
across the Nation, and schoolchildren and teens from various 
States are able to watch, listen, and even ask questions to 
high-profile writers and authors.
    Chairman Harper and Members of the Committee, the Library 
is both America's first Federal cultural institution and part 
of the innovative infrastructure of America. I thank you, 
again, for supporting the Library.
    And I would like to now introduce and have Mr. Bud Barton 
and Inspector General Kurt Hyde give you more details about the 
progress we have made.
    [The statement of Ms. Hayden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    The Chairman. Thank you, Dr. Hayden.
    And we appreciate your testimony and look forward to 
hearing more from you.
    At this time, the Chair will recognize Mr. Bud Barton for 5 
minutes for the purposes of an opening statement.

              STATEMENT OF BERNARD A. BARTON, JR.

    Mr. Barton. Good morning, Chairman Harper and Members of 
the Committee. I am honored and humbled to appear before this 
Committee this morning representing the Library of Congress as 
its Chief Information Officer. I would like to start by 
thanking each of you for your support to the Library and of our 
IT modernization efforts.
    In my short time at the Library, I have become an admirer 
of our mission and work, and I am devoted to improving it. My 
optimism is due in no small part to the dedicated and committed 
staff at the Library, whose first priority is to provide 
superior customer service for the Congress and for the American 
people. I will focus today on steps we are taking to ensure 
that priority is achieved.
    As you know, the Library is working to implement 
recommendations from the Government Accountability Office and 
the Library's Inspector General regarding IT. I take their 
recommendations very seriously and am confident that we will be 
successful in addressing these concerns, resulting in highly 
capable, agile, and customer-oriented IT services for the 
Library of Congress and its customers.
    So far, we have closed 51 of 74 nonpublic GAO 
recommendations and 5 of the 31 public recommendations, and we 
are making steady progress as noted earlier on the others.
    Since my appointment in September of 2015, the Library has 
made important changes at the leadership level to ensure that I 
have the authority to implement positive change. The Librarian 
recently directed all Library technology activities to be 
centrally coordinated through the Office of the CIO.
    In implementing this directive, the Library has promulgated 
internal regulations, established roles and responsibilities 
and other policies to ensure effective and efficient IT 
management. Our plan for centralization follows current 
industry best practices for streamlining IT governance, 
investments, and resources. We recently updated the Librarywide 
IT strategic plan to incorporate feedback from the Government 
Accountability Office and the Library's IT Steering and 
Executive Committees.
    In addition, I am taking the lead on the Library's digital 
strategy effort with full support and participation from my 
colleagues. The digital strategy will address the Library's 
vision for using technology to fulfill our mission.
    We continue to improve the Library's IT investment 
processes. For fiscal year 2018 we are incorporating technology 
business management principles into our investment cycle. The 
objective is to improve transparency, accountability, and IT 
value delivery to meet business and mission goals.
    Thanks to Congress' multiyear commitment to the Library's 
data center migration, we are aggressively modernizing through 
state-of-the-art offsite hosting environments that will provide 
significant improvements in reliability, allow for scalability, 
and enable greater focus on business applications across the 
Library.
    As confidential consultants to the Congress, administrator 
of the national copyright system, and stewards of the Nation's 
cultural history, the Library is well aware of the need to 
ensure security of the digital content in our care.
    Securing IT systems require proactive monitoring, testing, 
incident management, as well as anticipation of future cyber-
based threats. We have created a dedicated information security 
office staffed with true cybersecurity professionals to ensure 
that the Library IT systems are secure. We received funding 
during our fiscal year 2017 request to support this effort and 
to implement multifactor authentication to further protect the 
Library's network.
    We are also active participants in the Legislative Branch 
Cybersecurity Working Group, through which we are able to share 
threat information knowledge about new technologies to improve 
the legislative branch security posture.
    While working to improve enterprise infrastructure and 
processes, we continue to work with the Library's service units 
on their specific systems and applications. These efforts will 
help ensure that service units are able to rely upon a stable 
IT infrastructure to meet their business needs and that the 
Library has an actionable roadmap to enable patrons to access 
services and information as seamlessly as possible.
    Congress.gov, the official website for U.S. Federal 
legislative information, has recently experienced record usage, 
serving millions of unique visitors each month. LOC.gov pages 
have recently been redesigned to emphasize the Library's 
unparalleled collections and to highlight the Library's events, 
exhibits, and staff expertise. This is the first step in 
realizing the Librarian's goal for expanding discovery and use 
of the fantastic resources available to all through the 
Library.
    In closing, the progress we have made over the last 18 
months, along with my commitment to continuous improvement 
moving forward, has set a foundation for outstanding IT service 
to the Congress and the American people.
    I appreciate this Committee's support and am happy to 
answer your questions.
    [The statement of Mr. Barton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Mr. Barton.
    The Chair now recognizes Mr. Hyde for 5 minutes for your 
testimony.

                   STATEMENT OF KURT W. HYDE

    Mr. Hyde. Chairman Harper and Members of the Committee, 
thank you for the opportunity to testify on the progress the 
Library of Congress has made in addressing its IT deficiencies, 
challenges, and the work of the OIG in this area.
    Since 2011, our semiannual reports to Congress have 
consistently identified IT infrastructure as the top management 
challenge for the Library. I have been the IG at the Library 
since the summer of 2014. Our work over this time has 
emphasized that a robust strategic plan is essential to the 
Library's ability to efficiently and effectively fulfill its 
mission and be nimble to meet changing customer demands.
    We all recognize that an agency of the magnitude and 
importance of the Library, whose very essence involves 
collecting and conveying information, cannot succeed in the 
information age without a highly functioning and leading-edge 
digital infrastructure. Changes at the senior-most levels of 
both Library leadership and IT management have resulted in 
momentum toward developing the foundation for a stable 
infrastructure.
    In our 2009 report on IT strategic planning, we found 
significant issues with the Library's strategic plan and 
process, customer service problems, IT investments not linked 
to the strategic plan, and an organizational structure that did 
not foster good IT governance.
    In 2015, both GAO and my office found similar IT management 
issues as identified in 2009. For example, as a consequence of 
not having a strong strategic plan, the Library's eDeposit 
Program, which is the Library's program to collect electronic 
works, was not effectively implemented. In our 2015 report, we 
identified strategic planning, leadership, and governance 
issues as causes for this.
    Since 2015, three significant changes have occurred. First, 
the previous Librarian disbanded the old structure and 
organization and created an Office of the Chief Information 
Officer. Secondly, management hired a qualified CIO to lead the 
Library's IT reforms, and Mr. Barton has the experience and 
technical qualifications required for this position. And third, 
Dr. Hayden as a new Librarian shifted the lines of reporting so 
that the CIO now reports directly to her.
    In taking these actions, the Library complied with 
longstanding government requirements and opened the door for 
the CIO to, first, become more strategically prepared and, 
secondly, to dramatically change how IT provides services. The 
first will take time, and the second requires a laser focus on 
day-to-day operations, and the CIO is making good headway in 
this area.
    As we have advised the Librarian and the CIO, a concurrent 
task will be to staff the CIO's office with the knowledge, 
skills, and capabilities critical to achieving these goals, as 
well as to contract out for services to temporarily fill the 
critical gaps.
    For sure, it will be a challenge to do this and steady the 
ship at the same time. Fortunately, the CIO has a very 
effective deputy and has brought on broad some other critical 
technical executives.
    The CIO and his staff have over 100 audit recommendations 
that will take time to adequately address. Our focus at this 
point is to look at implementation and not create additional 
recommendations at the macro level.
    I want to get back to strategic planning for a moment, 
because it is the crux of what will make or break the Library's 
success in the digital age.
    As we have said in our reports, the Library does not have a 
strong track record in implementing its enterprisewide 
strategic plan. The imperative for the Librarian and other 
Library executives is to put together a strategic plan and 
implement it in a deliberate and timely manner.
    This is no easy task. Once executed, it will require top-
most executives to constantly monitor the various units' 
implementation and will require changes in the Library's 
governance and reporting. The Library has taken the steps of 
hiring a strategic planning officer to help implement this.
    The plan's key components must include a comprehensive 
digital services strategy and an understanding of its customer. 
Presently, the Library has neither.
    The Library and its CIO need a coherent, overarching 
strategy that interconnectivity and customers' needs. Such a 
strategy must have a good grounding of what that needs to look 
and feel like from a customer's perspective, be it a Member of 
Congress receiving a CRS report, e-commerce solutions for 
copyright, or pushing research out and making it available to 
the research community.
    Great challenges lie ahead for the Library. Senior 
management's commitment to change and the positive movement we 
have seen in recent years makes us hopeful that the Library is 
on the right course.
    Thank you for the opportunity to address this Committee, 
and I would be happy to answer any questions.
    [The statement of Mr. Hyde follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Mr. Hyde.
    We appreciate each of you giving us your testimony, and we 
will look forward to questions now.
    And, obviously, we all know how the timing device works, so 
I am going to recognize myself now for 5 minutes of questions.
    The first question that I have, really, Mr. Hyde, you just 
mentioned that the Library of Congress had hired someone to do 
the strategic planning. Who is that person?
    Mr. Hyde. That is Diane Haughton.
    The Chairman. Okay.
    Mr. Hyde. And she has extensive experience in that area. 
She has started up the risk management process as well as 
assisting and helping the Librarian implement the envisioning 
process.
    The Chairman. And as the IG, are you satisfied, then, with 
her qualifications and with the effort she thus far is making?
    Mr. Hyde. I am. She is very qualified.
    I think one of the things that you had mentioned in your 
opening statement was is there necessary support available. And 
I think that the Library, and we have talked about this with 
both the Librarian and the CIO, is that they need to hire 
contract support for this. They need to bring in a qualified 
firm to help them with the digital services strategy as well as 
an enterprisewide strategy.
    The Chairman. Okay. Now, I think it is pretty ambitious, 
obviously, and that is good, trying to close these 
recommendations. What are the challenges or barriers or 
opportunities, perhaps, that your office anticipates for the 
Library to close each of the remaining 26 recommendations?
    Mr. Hyde. I think it is time. When the CIO first came on 
board as well as before the new Librarian came on board, I met 
with the then Chief of Staff, Robert Newlen, who is now the 
Deputy Librarian, and I said, these are not quick fixes, these 
are 3 to 5 years it will take to implement many of these 
recommendations, and just do it at deliberate speed and 
grouping them in a very logical way.
    The Chairman. Okay. So the report was that there would be 
an attempt to close out 22 of those 26 remaining before the end 
of this year. Is that likely, or are these ones that can be 
done in that period of time?
    Mr. Hyde. Well, I think the GAO recommendations, I think 
they have been working with GAO on a regular basis, weekly 
meeting with GAO to close those. And some of these can be 
closed relatively quickly, and that is like putting in the 
right structure.
    The Chairman. Sure. And so if that happens, and if my math 
doesn't fail me, there are 26 left; we do 22 of them by the end 
of the year, that leaves 4 of the recommendations to be 
completed. And are those ones that you are saying would take 
years to do?
    Mr. Hyde. For ours, I think that you have the strategic 
planning element, the cost controls that are needed, the 
identification of the right infrastructure, the server 
infrastructure that is needed, cloud decisions, for example, 
that would take longer. But the others can be relatively 
quickly.
    The Chairman. Mr. Barton, if I could ask you, as we look at 
this, would you talk about your plans to address those 
remaining GAO recommendations? Your testimony highlights 
changes the Library is making. But talk about the steps the 
Library is making to fulfill those recommendations. Just give 
us some specifics there.
    Mr. Barton. Yes, sir. The Deputy CIO and GAO counterpart 
meet on a weekly basis to discuss the outstanding GAO 
recommendations. We are very confident that the target dates we 
have set we will meet.
    Although, I would like to say that the primary goal from my 
perspective is not just to close the recommendations. The 
recommendations are great, and they are a good roadmap. My 
intention is that we take those recommendations and view them 
as an opportunity to get ahead of future issues, right?
    So this is not a check the box, get the recommendations 
closed issue that I am trying to address. It really is setting 
the Library up for success in the future, not just to get to 
the recommended goals.
    The Chairman. So not necessarily to check the box and say 
it is done, but to make sure you have done that but you 
continue for the future to make sure that we don't get into 
another situation with many recommendations that need to be 
done?
    Mr. Barton. Yes, sir.
    The Chairman. Okay. That is great.
    And I realize my time is almost up. So at this point, I 
will now recognize the gentlelady from California, Ms. Lofgren, 
for 5 minutes for questions.
    Ms. Lofgren. Thank you very much.
    Mr. Barton, after you were hired and Mr. Mao became the 
acting Librarian, you both started working together and 
redefining the Office of the CIO and consolidating IT. Were 
there particular units or personalities that were opposed to 
some of your proposed modernization and centralization plans?
    Mr. Barton. Thank you for the question, ma'am.
    Opposed may be a stronger word than I would use. Many of 
the service units have some concerns. They, and rightfully so, 
are very mission focused, and the Library's track record on 
supporting those missions is mixed.
    I have committed to each of the service units that they 
will not experience a degradation in IT services as we 
implement this centralization and that we will allow them to 
spend more of their time on their mission-oriented IT needs and 
less time on the general day-to-day IT requirements that any 
organization has, in email and word processing----
    Ms. Lofgren. So is it your view at this point that, 
basically, everybody is on board with the plan?
    Mr. Barton. Yes, ma'am, it is my view. And I have regular 
meetings with each of the service unit heads, and each one of 
them has expressed the desire to make this be successful. There 
are still remaining concerns that we are addressing on a weekly 
basis.
    Ms. Lofgren. That is great news.
    In your testimony, you indicated that you are working with 
the Copyright Office to rework their IT modernization plan. 
That is really important to my district. We have large software 
and small software companies that rely on the Copyright Office 
and are desperate that the modernization has not yet been 
accomplished.
    The first version of the plan failed to consider the work 
being done in the Library, as I understand it. Was that a 
mistake?
    Mr. Barton. I think it missed an opportunity to take 
advantage of existing IT infrastructure and the ability for 
focusing specifically on mission requirements as opposed to 
infrastructure requirements.
    Ms. Lofgren. So at this point it is my understanding that 
the Copyright Office's modernization plan will leverage and 
coordinate with the Library's organizationwide strategic plan. 
Will that save money compared to the other plan?
    Mr. Barton. I anticipate that it will. I would like to say 
that we are having weekly meetings with the Copyright Office 
now to discuss how we are going to modernize their actual 
modernization plan. That is being very productive.
    Ms. Lofgren. Good.
    Mr. Barton. We are making good progress.
    Ms. Lofgren. Is it going to save time, you think?
    Mr. Barton. I would be very surprised if it did not save 
time.
    Ms. Lofgren. Good.
    What kind of impact, if any, does not having a permanent 
Register have on the progress that you are making?
    Mr. Barton. It would be hard for me to judge that.
    Ms. Lofgren. Okay.
    Mr. Barton. But I would say that the current Register and I 
meet twice a month.
    Ms. Lofgren. The Acting Register.
    Mr. Barton. And we are having very detailed discussion 
about her needs and how we can use IT at the Library to meet 
those needs. I feel that as long as she feels empowered to make 
decisions, that we will be successful going forward. That would 
be a question she----
    Ms. Lofgren. Okay. Maybe I should ask Dr. Hayden.
    It was my understanding that your plan was to post the 
Register of Copyright's opening on the USAJOBS site last April 
with a plan to hire in 60 days, but I don't think the opening 
was ever posted.
    What caused the delay in hiring the Register? And what kind 
of impact does not having an appointed Register have, do you 
think, on the Copyright Office's ability to modernize? It is 
very important that that proceeds.
    Ms. Hayden. The Library has worked directly with Congress 
on the Register position, and at this point the search and the 
process for having a permanent Register has been suspended. And 
in the interim----
    Ms. Lofgren. Because of the bill that passed the House?
    Ms. Hayden. It is a congressional decision. And in the 
interim, we have worked--and I want to say and echo what Mr. 
Barton said about working with the Acting Register on making 
sure that we continue the momentum on modernizing the office 
and the processes. That is critical, and that needs to happen 
regardless.
    And so we have taken the lead, basically, on making sure 
that that continues while we wait for Congress to make a 
decision on the----
    Ms. Lofgren. My time is up, but I am glad to hear that we 
are just proceeding and making the decisions in the absence. I 
think the bill was a mistake, as I said publicly, but the fact 
that it passed the House doesn't mean anything. I mean, most of 
the bills we send to the Senate die there. So I am hoping that 
we don't mess up the modernization effort in that key element 
of the Library, and I am very, very reassured by your comments, 
Dr. Hayden.
    Ms. Hayden. Thank you.
    Ms. Lofgren. And I yield back.
    Mr. Davis [presiding]. Thank you. I completely agree with 
my colleague. Many things we pass just do die in the Senate.
    But I do want to say thank you to Dr. Hayden. And I 
appreciated your responses to Ms. Lofgren's questions, 
especially about respecting what may or may not happen in this 
institution. Your willingness to work with us here in this 
Committee on issues that are related to infrastructure 
inventory, IT today, and also your willingness to work with us 
on issues that may have jurisdiction in other Committees that 
members may serve on has been a breath of fresh air for me.
    Personally, it has been great to get to know you. I look 
forward to continuing to work with you to address some issues 
that are in my district that you are very familiar with because 
of your time spent in my district too.
    So thank you very much for your responses.
    Ms. Hayden. Thank you.
    Mr. Davis. I am going to actually not ask you any 
questions. I am going to go to Mr. Hyde instead.
    Ms. Hayden. Okay.
    Mr. Davis. But thank you, Dr. Hayden.
    Mr. Hyde, I think you are probably more appropriate to 
answer the question that I have. It is really about inventory. 
Before you can set a strategic plan to continue to buy and 
upgrade new products, I guess we have to make sure that we have 
an inventory of the products that were already purchased and 
used and may or may not still exist within the Library to make 
sure we got it right. That is something that I think many 
Member offices forget to really truly manage, and there comes a 
time when they have to get their inventory straight too.
    You have much more and a much larger inventory than each of 
us do as Members of Congress, but that is why we in the House 
and this Committee, in particular, have really tried to strive 
to put together a Leg. branchwide purchasing operation, so that 
institutions like yours that have a larger facility, larger 
needs, can also take advantage of better systems.
    So I want to ask you, Mr. Hyde, how would you assess the 
state of inventory management and capacity planning at the 
Library right now?
    Mr. Hyde. I think there are two components to that. One is 
from an IT perspective, and that, I think, that the CIO's 
office is getting their arms around. That was one of the issues 
that GAO brought up and that we brought up a while ago.
    Mr. Davis. So GAO, if you don't mind me interrupting, had 
identified 18,000 computers, and you really only had physically 
about 6,500?
    Mr. Hyde. Right. And Mr. Barton can answer the specifics on 
this, but I think that that is correct. There is a challenge 
between the recordkeeping and the actual inventory and what 
things have been that are old and not used and not needed 
anymore. And I think that that is what was the challenge at the 
Library.
    Mr. Davis. Does your disposed inventory go to the GSA?
    Mr. Hyde. No, I think there is a--I don't know that answer. 
I can get that to you. But I think there is flexibility on what 
they can do with the inventory.
    Mr. Davis. Okay. What steps has the Library taken to more 
accurately account for the IT resources?
    Mr. Hyde. Right. Well, he has a team. As a matter of fact, 
they have been recently just talking to me about different ways 
to efficiently record that inventory. And so they are taking 
action and they are trying to get their arms around it. And 
also determining the smaller pieces, do we really spend our 
time on the smaller pieces versus the larger elements, and they 
are working towards it.
    Mr. Davis. Mr. Barton, do the current regulations and 
processes for acquisition management allow your office to 
acquire the needed IT services effectively and easily?
    Mr. Barton. Easily would be a matter of----
    Mr. Davis. Well, nothing is ever easy in acquisition, 
unfortunately.
    Mr. Barton. Exactly. So we have not had any circumstances 
where we have not been able to get the items or services, 
equipment, that we need. There is always room for improvement 
in those types of processes. But I am satisfied with the 
current acquisition process with the Library.
    Mr. Davis. To what extent will the GAO recommendations 
improve or hinder that effectiveness?
    Mr. Barton. There have been several suggestions and 
implemented suggestions from the GAO primarily regarding 
contract phrasing, required clauses within contracts, dealing 
with security, dealing with the ownership of data or property 
of the government whenever we enter into contracts. So that was 
a very practical help from the audits.
    Mr. Davis. All right. My time is running out, so I have a 
couple of quick questions to ask you, Mr. Barton.
    How soon do you anticipate closing recommendations related 
to this area in the GAO study?
    Mr. Barton. I will have to take that for the record, sir, 
but we do expect that we will be closing the vast majority by 
the end of this calendar year.
    Mr. Davis. Okay. How are you using the Legislative 
branchwide acquisition process?
    Mr. Barton. That is a very good question. We are using Leg. 
branchwide acquisition capabilities whenever it is possible and 
makes sense for us. In fact, most of the contracts that we are 
writing ourselves these days are open for the rest of the 
Legislative branch to use.
    Mr. Davis. Well, thank you. My time has expired. And I have 
to go to another hearing, so Mr. Loudermilk is going to take 
over and ask his questions from here.
    Thank you very much.
    Mr. Barton. Thank you.
    Mr. Loudermilk [presiding]. I apologize for the delay with 
the change there. It was unexpected. But I now recognize myself 
for 5 minutes for questions.
    Mr. Barton, I want to talk and continue the conversation we 
were having about the GAO report, which was, I guess, published 
in March of 2015. Is that correct?
    Mr. Barton. Yes, sir.
    Mr. Loudermilk. Specifically on the 10 items or 
recommendations made regarding information security--or 
management, the information security management-- to date, from 
what it appears, is only 1 of the 10 recommendations has been 
completed. Is that correct?
    Mr. Barton. Of the public recommendations, yes, sir.
    Mr. Loudermilk. Okay. And 5 of those, number 20, 21, 23, 
26, and 28, were actually scheduled to be completed in December 
of 2016. What is the delay on those and what is the status? 
What is the new estimated date of completion of those items?
    Mr. Barton. So I will take for the record the actual new 
estimated completion dates. I do not have that information 
right at my fingertips.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Barton. In general, the reason that we have delays from 
originally scheduled dates, twofold. Either we get into the 
fixing of those recommendations and determine that it was much 
more difficult or complex than what we anticipated or the 
Government Accountability Office has determined that they need 
to have more details than what we have provided on the initial 
submission.
    It is very much an interactive process with the GAO and the 
Library. What may not be known is that their actual audit was 
the broadest audit that they had ever done for any organization 
across the Federal Government. And so there are many details 
that have to be worked out, and we have very ongoing 
conversation on correcting those issues.
    Mr. Loudermilk. Okay. Of course, our concern has been there 
has been quite a good amount of time that has transpired since 
March of 2015 even till the completion date that was estimated 
of December 2016. Now we are in June of 2017. And some of those 
are pretty critical items, such as ensuring that everyone that 
has access to the IT system has their required training and 
documented. So some of those seem pretty important to get done 
as quickly as possible.
    Let me transition over to another incident that happened at 
the Madison Data Center, when there was an issue. You 
experienced some system outages. But a decision was made not to 
fall over to the backup facility. Why did you decide not to go 
to the backup facility in that incident?
    Mr. Barton. That was actually the week I started at the 
Library.
    Mr. Loudermilk. Okay.
    Mr. Barton. So that was a good welcoming package. And as 
Mr. Hyde noted, I have a very capable deputy, who is sitting 
behind me today, and she was on top of this issue to begin 
with.
    Without going into too much detail, there were security-
related concerns, which prevented us from being able to switch 
over to our alternate computing facility.
    Mr. Loudermilk. Okay. Have those security concerns been 
addressed and resolved?
    Mr. Barton. Yes. And as a matter of fact, we conducted the 
largest fail-over exercise this past year, and we took all of 
the critical systems for the Library and failed them over to 
the alternate computing facility with the security requirements 
in place, and we were functioning as we should be.
    Mr. Loudermilk. And so the fail-over was successful?
    Mr. Barton. Yes.
    Mr. Loudermilk. Was there any significant delay in the 
fail-over? So if we were to have another incident today, we 
would be able to fail-over to the alternate facility without 
any disruption of service?
    Mr. Barton. Yes, sir.
    Mr. Loudermilk. Okay.
    Back in July of last year, coming up on a year, the Library 
had a denial-of-service attack, which, of course, disrupted the 
services and the websites. What has been taken to protect 
against these denial-of-service attacks and other related 
service interruptions?
    Mr. Barton. As you are aware, the cyber threat is 
constantly evolving. We have procured services that allow us to 
mitigate significant volume of denial-of-service attack. 
Without going, again, into too many details on the security 
side of things, we are confident that for any significant 
anticipated type of volume of attack, we have put in place the 
procedures and services that allow us to mitigate those 
concerns.
    Mr. Loudermilk. Okay. My time is expiring, and if you could 
get back with the Committee on the new dates on the information 
security management, of the 10, of what those anticipated dates 
are, it would be appreciated.
    Mr. Barton. Yes, sir.
    The Chairman [presiding]. I want to thank each of you for 
your testimony.
    I have a follow-up question, Mr. Barton, if I could ask.
    How are you establishing actual business requirements and 
the appropriate level of service needed to meet those 
requirements? For example, key systems, like Congress.gov and 
copyright customer facing systems, should have very high 
expectations while others might need less.
    Mr. Barton. Thank you, sir. As you may or may not be aware, 
there are standards established by the NIST, National Institute 
for Standards and Technology, that we follow. And we are really 
involved with the organization that requires the services.
    For example, the Copyright Office has their eCO system that 
it uses for registration, and Copyright would be the 
determining organization as to what is the level of service 
that is required for their capability. The same with the CRS. 
So we understand that whenever Congress is in session, CRS has 
to be functioning.
    So we look at each application on a case-by-case basis, and 
we have, essentially, a checklist that we go down. And we ask 
the system owners, do you need this type of capability and 
response time?
    So it is a very integrated approach, collaborative with the 
organization that is providing the capability, and I think it 
is working out fairly well at this point. We still are dealing 
with a lot of legacy concerns that we are addressing as quickly 
as we can.
    The Chairman. How do you measure that performance, not only 
on meeting not only the service end user expectations, how do 
you measure that?
    Mr. Barton. That is an ongoing development effort for us. 
We do have a service desk where people call, and they will open 
up tickets, and we ask them to evaluate how they are satisfied 
with the service that they receive. That has always been, at 
least in my tenure, a fairly positive experience. The vast 
majority, over 95 percent of the responses we receive, are very 
positive. So that is one way we measure them.
    Another way that we are looking at, and we have a service 
management process that we are implementing for the Library 
that deals with across the board spectrum of all IT services, 
and that will establish service level agreements within our 
service catalogue, which will be automated, how we monitor 
those based on server up times, response time to request for 
Web services, those types of things. So both a combination of 
asking the recipient of the service and monitoring the 
automated systems so that we can establish what is our baseline 
and then improve the performance from the baseline.
    The Chairman. Thank you.
    And in light of that, Ms. Lofgren, do you have any follow-
up questions?
    Ms. Lofgren. No.
    The Chairman. I had one last quick question for you, Dr. 
Hayden, before we stop. How do you recognize employees who go 
above and beyond? Is there some way that you do that?
    Ms. Hayden. The first person that, I must say, I would 
recognize immediately would be Mr. Barton and commend him for 
the work he has done. During my confirmation hearing, I 
mentioned Mr. Barton assuring me that technology would not be a 
problem, and that has been borne out.
    And so recognition comes, of course, for the entire staff 
in many ways, sometimes actual additional compensation in 
various forms, but definitely recognition and holding them up. 
And there are award programs that I have participated in where 
people are recognized.
    The Chairman. I now recognize Ms. Lofgren.
    Ms. Lofgren. Not a question, just an observation.
    Obviously, the Library is a very big operation. There are 
hundreds of employees. You know, morale in the past has been a 
problem. But I have just had random Library employees come up 
to me and really express great pride and satisfaction in the 
work they are doing, and I think it is a real credit to your 
leadership, Dr. Hayden. I wanted to share that with you. And I 
think the fact that so many employees are happy and full of 
pride in their work and come up and tell a Member of Congress, 
that actually speaks to a lot about what you are doing. So 
thank you for it.
    And I will yield back.
    The Chairman. The gentlelady yields back.
    In light of what I think is some good progress and what we 
are trying to accomplish, I would anticipate we will revisit 
this issue maybe early next year, since we have a lot of these 
recommendations that we are working on, and kind of measure 
where we are at that point.
    Without objection, all members will have 5 legislative days 
to submit to the chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so that their answers may be 
made a part of the record.
    Without objection, the hearing is adjourned.
    Ms. Hayden. Thank you.
    [Whereupon, at 10:53 a.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
</pre></body></html>
